                 U.S. Department of Agriculture

                    Office of Inspector General
                           Great Plains Region




       Audit Report

  Food and Nutrition Service
National School Lunch Program
  Unified School District 497
      Lawrence, Kansas




                       Report No. 27010-14-KC
                                   March 2004
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL - AUDIT
                                         Great Plains Region
                                    8930 Ward Parkway, Suite 3016
                                   Kansas City, Missouri 64114-3302
                                 TEL: 816.926.7667 FAX: 816.926.7676




DATE:         March 26, 2004

REPLY TO
ATTN OF:      27010-14-KC

SUBJECT:      National School Lunch Program – Unified School District 497,
              Lawrence, Kansas

TO:           Darlene Barnes
              Regional Administrator
              Food and Nutrition Service
              1244 Speer Boulevard, Suite 903
              Denver, CO 80204


This report presents the results of the subject audit.         Your written response, dated
March 11, 2004, to the official draft report has been incorporated into the Findings and
Recommendations section of the report, where appropriate. The text of the response is attached
as exhibit B. Your reply expressed agreement with the recommendations; however, we were
unable to reach management decisions on any of the recommendations. The Findings and
Recommendations section of the report explains those actions necessary for us to consider
management decisions on Recommendations Nos. 1, 2, 3, and 4. In general, we will need to be
advised of the specific actions completed or planned along with acceptable dates for completing
the proposed actions.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframes for accomplishing final action.
Please note that the regulation requires management decisions to be reached on all findings and
recommendations within 6 months from the date of report issuance, and final action should be
completed within 1 year of management decision.

We appreciate the assistance provided to us during our review.

/s/


DENNIS J. GANNON
Regional Inspector General
 for Audit
Executive Summary
Food and Nutrition Service, National School Lunch Program, Unified School
District 497, Lawrence, Kansas (Audit Report No. 27010-14-KC)

Results in Brief    This report presents the results of our audit of the National School Lunch
                    Program (NSLP) and School Breakfast Program (SBP), as administered by
                    Unified School District 497, Lawrence, Kansas, the local school food
                    authority (SFA). The Kansas State Department of Education served as the
                    State agency, and the United States Department of Agriculture’s (USDA)
                    Food and Nutrition Service (FNS) served as the funding agency. For school
                    year 2001/2002 operations, the SFA received over a million dollars in FNS
                    reimbursement and about $40,000 in State agency reimbursement.

                    We began our audit of the SFA in January 2003. Our objectives were to
                    evaluate FNS’ controls over the administration of the NSLP/SBP and the
                    accounting systems, and the SFA’s meal accountability, procurement, and
                    management controls that were designed to provide reasonable assurance as
                    to the accuracy of its meal claims and reimbursement for school years
                    2001/2002 and 2002/2003 through December 31, 2002. Our tests of
                    procurement activities did not identify any reportable conditions.

                    However, we found weaknesses existed in the SFA’s internal controls over
                    timely submitting claims for and receipt of Federal and State reimbursements
                    (including timely processing cash receipts), approving and recording
                    expenses, monitoring cash needs, and accurately reporting financial
                    operations to the State agency. Specifically, the SFA had a history of not
                    properly filing and following up on claims for reimbursement. For example,
                    the district was unaware it had not received reimbursement payments totaling
                    about $227,200 for its August and October 2001 claims for reimbursement.
                    Subsequently, the SFA received $141,600 in reimbursement, but because of
                    Federal regulations limiting the conditions where underclaims can be
                    corrected, the SFA could not receive approximately $85,600 of Federal
                    reimbursement. In addition, there were delays in processing transactions, and
                    central office and school lunch personnel had difficulty in communicating the
                    effect of transactions related to the food service account.

                    For two of the schools reviewed, the SFA did not follow the approved
                    collection and accountability procedures, as stated in the program agreement
                    with the State agency.

                    The report also contains a general comment that the SFA’s accounting
                    procedures did not include crediting a prorated share of interest earned from
                    investments.




USDA/OIG-A/27010-14-KC                                                                    Page i
Recommendations
In Brief           We recommend that FNS require the State agency to direct the SFA to
                   implement various management and internal controls over aspects of the
                   accounting system. We recommend that FNS require the State agency to
                   provide the SFA with procedures to correct the internal control weaknesses
                   (1) over making claims and receiving Federal and State reimbursements,
                   (2) approving and recording expenses, (3) monitoring cash needs, and
                   (4) accurately reporting financial operations to the State agency.

FNS Response       Although the agency response showed that FNS officials concurred with the
                   recommendations; it did not provide sufficient information to reach
                   management decisions on any of them. In its response, FNS disagreed with
                   including the monetary amount for one claim paid by the State agency as an
                   underclaim in exhibit A. We incorporated their comments in the applicable
                   sections of the report and attached a copy of the comments as exhibit B.

OIG Position       The Findings and Recommendations section of the report explains those
                   actions necessary for us to consider management decisions on
                   Recommendations Nos. 1, 2, 3, and 4. In order to reach management
                   decisions, we will need to be advised of the specific actions completed or
                   planned along with acceptable timeframes for completing the proposed
                   actions. In regard to FNS’ position that the cited underclaim amount is a
                   programmatic matter and not a financial finding, we continue to believe that
                   the amount is correctly classified as an underclaim in exhibit A under our
                   policies for reporting monetary results.




USDA/OIG-A/27010-14-KC                                                                  Page ii
Abbreviations Used in This Report

Act                 Richard B. Russell National School Lunch Act
CFR                 Code of Federal Regulations
FNS                 Food and Nutrition Service
NSLP                National School Lunch Program
OIG                 Office of Inspector General
POS                 Point of Service
SBP                 School Breakfast Program
SFA                 School Food Authority
SFSP                Summer Food Service Program
USDA                United States Department of Agriculture




USDA/OIG-A/27010-14-KC                                             Page iii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Accounting and Controls Over School Lunch Funds Should Be Improved .............. 3

        Finding 1             Lack of Oversight of Claims Process ...................................................................... 4
                                  Recommendation No. 1.................................................................................... 6
        Finding 2             Food Service Accounts Not Promptly Credited for Reimbursements .................... 7
                                  Recommendation No. 2.................................................................................... 7
        Finding 3             Inadequate Controls Resulted in Inaccurate Accounting Transactions and
                              Inaccurate Monthly and Annual Reports ................................................................ 8
                                  Recommendation No. 3.................................................................................. 10

    Section 2. Collection and Accounting for Reimbursable Meals.................................................. 11

        Finding 4             Meal Accountability Procedures Were Not Followed .......................................... 11
                                 Recommendation No. 4.................................................................................. 12

General Comments ............................................................................................................................... 13

Scope and Methodology........................................................................................................................ 14

Exhibit A – Summary of Monetary Results ....................................................................................... 16
Exhibit B – FNS Reply to Official Draft ............................................................................................. 17




USDA/OIG-A/27010-14-KC                                                                                                                   Page iv
Background and Objectives
Background               On June 4, 1946, Congress passed the National School Lunch Act,1 now
                         the Richard B. Russell National School Lunch Act (Act), which authorizes
                         Federal school lunch assistance. The intent of the Act, as amended
                         December 29, 2001, is to safeguard the health and well-being of the
                         Nation’s children by providing them with nutritious foods and to
                         encourage the domestic consumption of nutritious agricultural
                         commodities and other foods. This is accomplished by assisting States,
                         through grants-in-aid and other means, in providing an adequate supply of
                         food and facilities for the establishment, maintenance, operation, and
                         expansion of nonprofit school lunch programs.

                         The Act, as amended, authorizes the payment of general and special
                         assistance funds to States based upon the number and category of lunches
                         served. Section 4 of the Act authorizes general cash assistance payment
                         for all lunches served to children in accordance with the provisions of the
                         National School Lunch Program (NSLP) and additional special cash
                         assistance for lunches served under the NSLP to children determined
                         eligible for free or reduced-price lunches. The States are reimbursed at
                         various rates per lunch, depending on whether the child was served a free,
                         reduced-price, or full-price (paid) lunch. Eligibility of children for free or
                         reduced-price lunches is based upon their family’s household size and
                         income, as listed in the Food and Nutrition Service (FNS) Income
                         Eligibility Guidelines, which are reviewed annually.

                         FNS is the United States Department of Agriculture (USDA) agency
                         responsible for administering the NSLP/School Breakfast Program (SBP).
                         FNS has seven regional offices nationwide. The FNS Mountain Plains
                         Regional Office, located in Denver, Colorado, is responsible for
                         monitoring and overseeing operations in Kansas. The Kansas State
                         Department of Education serves as the State agency and is responsible for
                         overseeing program operations within Kansas. The school food authority
                         (SFA) located in Lawrence, Kansas, is responsible for operating the NSLP
                         in accordance with regulations. Each State agency is required to enter into
                         a written agreement with FNS to administer the NSLP/SBP and each State
                         agency enters into agreements with SFAs to oversee day-to-day
                         operations. The SFA administered the NSLP/SBP in 26 public schools.

                         The fiscal year 2002 funding for the NSLP was $6 billion for meal
                         reimbursements of approximately 4.7 billion lunches. The Kansas State
                         agency received approximately $58 million for the NSLP and $14 million
                         for the SBP in Federal reimbursements for fiscal year 2002. For school
                         year 2001/2002, Kansas provided State funds of approximately
                         $2.5 million to SFAs.
1
    42 U.S. Code 1751.

USDA/OIG-A/27010-14-KC                                                                         Page 1
                   The general NSLP requirements are codified in Title 7, Code of Federal
                   Regulations (CFR) 210. Requirements for determining eligibility for free
                   and reduced-price meals and free milk are codified in 7 CFR 245. In
                   accordance with 7 CFR 250, USDA also provides donated foods to SFAs
                   to assist in operating the nonprofit lunch program. The Kansas State
                   agency provides cash in lieu of actual commodities to each public school
                   participating in the NSLP/SBP.          Generally, schools must collect
                   applications on an annual basis from households of enrolled children and
                   make annual determinations of their eligibility for free or reduced-price
                   meals. These schools must also count the number of free, reduced-price,
                   and paid meals served at the point of service (POS) on a daily basis.

Objectives         The objectives of our review were to evaluate controls over the
                   administration of the NSLP/SBP. We evaluated policies and procedures
                   over meal accountability and oversight of program operation. To
                   accomplish this, we evaluated (1) the accounting for the SFA’s school
                   food service account, (2) the accuracy of collections and accounting for
                   reimbursed meals, and (3) the accounting and use of program funds
                   relating to the SFA’s procurement of goods and services.




USDA/OIG-A/27010-14-KC                                                               Page 2
Findings and Recommendations
Section 1. Accounting and Controls Over School Lunch Funds Should Be Improved

                              Weaknesses existed in the SFA’s internal controls over submitting claims
                              for and receipt of Federal and State reimbursements, approving and
                              recording expenses, monitoring cash needs, and accurately reporting
                              financial operations to the State agency. Specifically, the SFA had a
                              history of not properly filing and following up on claims for
                              reimbursement and we identified 7 months since the 1999/2000 school
                              year where some type of delay occurred in receiving the claim for
                              reimbursement. After being made aware of the condition, the SFA never
                              took adequate action to correct this weakness, and the SFA was unaware it
                              had not received reimbursement payments totaling about $227,200 for its
                              August and October 2001 claims for reimbursement. Because of Federal
                              regulations limiting the conditions where underclaims can be corrected,
                              the SFA could not receive approximately $85,600 of Federal
                              reimbursement. In addition, there were delays in processing transactions,
                              and central office and school lunch personnel had difficulty in
                              communicating the effect of transactions related to the food service
                              account.

                              Federal regulations2 require that internal controls must maintain effective
                              control and accountability for all grants and subgrants, cash, real and
                              personal property, and other assets. The grantee and subgrantees must
                              adequately safeguard all such property and assure that it is used solely for
                              the authorized purposes.3 Federal regulations4 also state that grantees and
                              subgrantees must maintain records which adequately identify the source
                              and application of funds provided for financially assisted activities. These
                              records must contain information pertaining to grant or subgrant awards
                              and authorizations, obligations, unobligated balances, assets, liabilities,
                              outlays or expenditures, and income.

                              State Agency guidelines5 state the SFA should answer the following
                              questions to ensure the district has proper controls and knows the strengths
                              and weaknesses of the food service program:

                               •    Are receipts and expenditure reports, as well as profit and loss
                                    statements, prepared monthly?



2
  7 CFR 3016.20(b)(3).
3
  FNS officials noted that the Federal requirements for the SFA to assure the accuracy of the reimbursement claim,
including the specific edits and procedures to be followed to help assure this accuracy, are the sole "controls" or checks
that are specifically set forth for SFAs to follow.
4
  7 CFR 3016.20(b)(2).
5
  Kansas State Department of Education Food Service Facts Handbook – Fall 1999.

USDA/OIG-A/27010-14-KC                                                                                           Page 3
                             •   Are monthly expenses and revenues compared with prior month’s and
                                 year’s totals?

                             •   Are frequent audits conducted to ensure the accuracy of reported
                                 information (revenue totals reflect cash sales and accurate claims for
                                 reimbursement and expenses reflect only allowable costs)?

Finding 1                   Lack of Oversight of Claims Process

                            The SFA did not timely receive reimbursement payments for 7 months.
                            This occurred because the food service office did not effectively monitor
                            the filing and payment receipt or collection process of the monthly claims
                            for reimbursement to ensure timely reimbursements were made to the food
                            service account. As a result, during the 2001/2002 school year, the SFA
                            did not receive reimbursement payments for 2 months that would have
                            totaled about $227,200, because they were not submitted timely and were
                            therefore barred from reimbursement under Federal requirements (without
                            a special authorized one-time exception).6 Similarly, there were five
                            instances where there were delays in submitting or receiving
                            reimbursements totaling about $353,000 for November 1999 through
                            March 2000.

                            Federal regulations7 state a final claim for reimbursement shall be
                            postmarked or submitted to the State agency not later than 60 days
                            following the last day of the full month covered by the claim. Regional
                            office guidance8 states for late claims, a local agency or sponsor may be
                            granted a one-time exception if it has not been granted such an exception
                            for a claim month occurring in the 36-month period previous to the late
                            claim under consideration.

                            Before starting fieldwork at the SFA, we requested the State to provide
                            independent verification of the claims for reimbursement for July 2001
                            through December 2002. While providing this information, a State
                            official discovered they did not show paying any claims to the SFA for
                            August and October 2001. The State agency then notified the SFA and
                            action was taken to authorize payment of the October 2001 claim for
                            $141,600 after its claims had been submitted by the SFA. This payment
                            was deposited to the SFA’s general account in February 2003. A State
                            agency official stated the August 2001 claim for $85,600 could not be paid
                            due to Federal requirements.




6
  FNS 60/90 Day Reporting For Child Nutrition Programs, dated August 2001.
7
  7 CFR 210.8(b)(1).
8
  FNS Mountain Plains Regional Office guidance, dated November 8, 1993.

USDA/OIG-A/27010-14-KC                                                                          Page 4
                              The SFA food service director said that they did not have any controls to
                              monitor each month’s potential claim to ensure it was timely filed and
                              paid.

                              There were several factors contributing to the late payments. For
                              example, the SFA had consolidated the August 2001 claim with the
                              September 2001 claim. However, the State agency did not allow the
                              consolidated claim because there were more than 10 operating days in
                              August.9 State files showed the SFA resubmitted the September claim,
                              but there was no record that the SFA ever resubmitted the August 2001
                              claim totaling about $85,600 for Federal reimbursement.

                              Concerning the October 2001 claim, an SFA employee said they had
                              prepared the claim; however, the State agency told the SFA they had no
                              record of receiving it. In addition, the SFA could not provide adequate
                              documentation to prove the claim was timely submitted.

                              We expanded our review to include the 1999/2000 school year. We found
                              that the SFA’s claims for reimbursement, totaling about $353,000 for
                              November through March, were not received until July 2000. A State
                              agency official stated the SFA apparently faxed the claims for
                              reimbursement to the State agency; however, the State agency had no
                              record of receiving the original claims. The State agency determined there
                              was a hardware problem between the State agency and the SFA fax
                              machines and paid the claims as timely filed. The State agency
                              subsequently instructed the SFA to mail a hard copy of the claims for
                              reimbursement when they were faxed to the State agency to ensure the
                              State agency received the claims. However, this practice, if implemented,
                              was not sufficient to prevent the errors from recurring.

                              The food service director stated that delays and weaknesses in the finance
                              office contributed to the inability to identify that some claims had not been
                              received. The food service director noted that the finance office had a
                              high turnover in personnel during that period, and the district hired a
                              potential Chief Executive Officer, but that employment ended after a few
                              months. We believe the previous errors should have alerted the SFA to
                              establish procedures to closely monitor the timely filing of the claims for
                              reimbursement and the prompt receipt of the funds.

                              FNS personnel stated the missing claims for reimbursement under
                              question were simply nonpayable, even as an option, by the State agency
                              and FNS took the position that no amounts should be shown in exhibit A.
                              We have provided additional information in exhibit A why we continued
                              to reflect $141,600 as an underclaim.


9
 7 CFR 210.8(c)(1) states if the first or last month of program operations for any school year contains 10 operating days
or less, such month may be combined with the claim for reimbursement for the appropriate adjacent month.

USDA/OIG-A/27010-14-KC                                                                                          Page 5
Recommendation No. 1

                   Instruct the State agency to require the SFA to implement control
                   procedures to monitor filing of the monthly claims and receipt of
                   reimbursement. Require the State agency to verify the SFA has properly
                   implemented the procedures.

                   FNS Response.

                   FNS concurred with Recommendation No. 1. However, FNS noted that
                   the report also includes exhibit A, Summary of Monetary Results, where
                   the sum of $141,600 is cited as an underclaim. This figure represents the
                   dollar value of the school district’s reimbursement claim for October
                   2001. As the report notes, this reimbursement claim was not submitted
                   timely by the SFA to the State agency and, therefore, the FNS noted that
                   the amount cited was not liable for payment to the district under USDA-
                   FNS policy and guidance. The State agency, however, under provisions of
                   this same FNS policy and guidance, decided to grant the district’s request
                   for a “one-time exception” to the claim reporting deadline requirements,
                   so as to permit the State agency to pay this claim, which it was otherwise
                   not liable to pay. While we do note that the narrative report does not
                   require any action to be taken in reference to this monetary amount, we
                   take issue with the inclusion by OIG of this finding as a monetary finding.
                   We maintain that this was a programmatic matter, not a financial finding.
                   The State’s action was fully, and correctly, within its purview.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA
                   will be completed. In regard to FNS’ position that the cited amount
                   should not be shown as an underclaim in exhibit A, we recognize that the
                   State agency actions to grant the SFA’s claim request in one case and deny
                   its other request for claim were within its purview. We are not taking
                   exception to the actions taken by the State agency. Rather, we have
                   shown this amount as an underclaim because the SFA submitted its claims
                   for reimbursement as a result of actions the State agency had taken in
                   providing information we requested for this audit and the SFA had
                   received its reimbursement from the State Agency for the cited untimely
                   claim. Under our reporting policies, the amount is most accurately
                   reported under this classification. Therefore, our position on classification
                   of this amount in exhibit A remains unchanged.




USDA/OIG-A/27010-14-KC                                                                   Page 6
Finding 2                      Food Service Accounts                    Not     Promptly   Credited     for
                               Reimbursements

                               The SFA did not promptly credit the food service checking account for
                               monthly State agency reimbursement payments deposited into the school’s
                               general account. This occurred because the SFA’s established procedures
                               delayed the crediting of the food service checking account, and the
                               exchange of information was insufficient to provide needed information to
                               the food service director. As a result, the SFA food service director was
                               unaware of whether claims for reimbursement had been received (see
                               Finding No. 1). In addition, without current cash balance information, the
                               food service director could not accurately prepare the monthly reports.

                              State agency guidelines10 require all monies received by the SFA for the
                              food service program to be credited to the food service fund.

                               An SFA official stated all assistance from the various State sources was
                               combined and sent in one wire transfer to the school’s general account. The
                               SFA used established procedures that delayed the crediting of the food
                               service account. For example, finance office officials normally waited for
                               the Superintendent’s office to advise them of a claimed reimbursement,
                               verified receipt of the reimbursement with the bank, and completed a bank
                               reconciliation before crediting the funds to the food service account. We
                               found that the lag time of the transfer from the general account to the food
                               service account was generally 1 to 2 months. However, the lag time for one
                               transfer was over 3 months. The school finance director attributed the delays
                               in transfers to lack of staff and delays in receiving documents from the
                               Superintendent’s office.

                               There are alternatives to the school’s current process, which would allow the
                               funds to be immediately credited to the food service account. We were told
                               that the school food service director could obtain the approved
                               reimbursement amount from the State agency web site instead of waiting for
                               the school Superintendent’s office to advise the school finance office of the
                               reimbursement received. In addition, there had been discussions of allowing
                               the school food service director to review the deposits to the general fund
                               bank account online; however, the necessary online bank access for the food
                               service director had never been completed.

Recommendation No. 2

                               Require the State agency to instruct the SFA to implement procedures and
                               internal controls to promptly credit reimbursements to the food service
                               account and to keep food service personnel fully informed of the status of

10
     Kansas State Department of Education Food Service Facts Handbook – Fall 1999.

USDA/OIG-A/27010-14-KC                                                                               Page 7
                                the reimbursements. Have the State agency verify that the SFA has
                                properly implemented the procedures.

                                FNS Response.

                                FNS concurred with Recommendation No. 2.

                                OIG Position.

                                In order to consider management decision, we need to be notified of the
                                proposed dates when the recommended actions to be taken by the SFA
                                will be completed.

Finding 3                       Inadequate Controls Resulted in Inaccurate Accounting
                                Transactions and Inaccurate Monthly and Annual Reports

                                The SFA did not accurately complete the monthly and annual reports
                                required by the State agency and did not accurately determine the cash
                                position of the school lunch fund. This occurred because control
                                procedures had not been established to timely record transactions, share
                                accounting information, and accurately analyze data. The SFA personnel
                                were not promptly completing the bank statement reconciliation to
                                determine the unencumbered opening cash balance or reviewing the
                                reports for accuracy.       Also, SFA personnel misclassified some
                                transactions. As a result, the unencumbered cash balance decreased by
                                about $256,000 between the opening and closing balances for school year
                                2001/2002 without adequate review by the SFA. In addition, the SFA
                                overstated State sources and understated Federal sources by $51,766 on the
                                2001/2002 Annual Financial Status Summary report to the State agency.

                                State agency guidelines11 provide, essentially, that public school districts
                                must complete a Monthly Financial Status Summary Form for each calendar
                                month of the fiscal year, July through June, and keep the monthly forms on
                                file with other School Nutrition Program documents. The Annual Financial
                                Status Summary is to be submitted to the State agency by August 15.

                                State agency guidelines12 state the SFA should answer the following
                                questions to ensure the district has proper controls and knows the strengths
                                and weaknesses of the food service program: Are receipts and expenditure
                                reports, as well as profit and loss statements, prepared monthly? Are
                                monthly expenses and revenues compared with prior month’s and year’s
                                totals? Are frequent audits conducted to ensure the accuracy of reported
                                information (revenue totals reflect cash sales and accurate claims for
                                reimbursement and expenses reflect only allowable costs)?

11
     Accountability and Record-Keeping for the School Nutrition Programs Handbook – July 2002.
12
     Kansas State Department of Education Food Service Facts Handbook – Fall 1999.

USDA/OIG-A/27010-14-KC                                                                               Page 8
                              •   An SFA official stated a financial status summary report was prepared
                                  each month but it was not always accurate because the food service
                                  office relied on the school finance office to complete the bank
                                  reconciliation and provide the monthly unencumbered cash balance for
                                  the food service account. We found the school finance office did not
                                  timely report the unencumbered opening cash balance to the food
                                  service office so the monthly financial status summaries were
                                  completed as fully as possible to help prepare for the Annual Financial
                                  Status Summary report.

                              •   The SFA was in violation with the cash basis accounting principles for
                                  allowing the unencumbered closing cash balance to become a negative
                                  balance on four of the monthly financial status summary reports.13 We
                                  completed the monthly financial status summary reports based on the
                                  unencumbered opening cash balance noted on the 2001/2002 Annual
                                  Financial Status Summary report. We noted the unencumbered
                                  closing cash balance had a negative balance in December 2001 and
                                  January, March, and May 2002. If the food service office had
                                  effectively completed the monthly financial status summary reports,
                                  personnel would have been aware the food service fund was operating
                                  with a negative balance.

                                  For example, we noted the unencumbered opening cash balance was
                                  about $337,430 on July 1, 2001, and determined the unencumbered
                                  closing cash balance was about $81,360 on June 30, 2002. There was
                                  a difference of about $256,070 ($337,430 - $81,360) from the
                                  unencumbered opening cash balance to the unencumbered closing cash
                                  balance for the 2001/2002 school year. The error of not submitting the
                                  August and October 2001 claims for reimbursement to the State
                                  agency might have been avoided had the SFA followed the cash basis
                                  accounting principles and compared expenses and receipts with the
                                  previous periods (see Finding No. 1).

                              •   The school finance office recorded workers compensation expenses as
                                  outstanding wire transfers in the school food service check register at the
                                  beginning of each school year, but did not actually complete the wire
                                  transactions until a later date.14 For example, the school finance office
                                  did not complete the 2001/2002 school year wire transfer of $55,204 for
                                  over 9 months. In addition, the 2002/2003 school year wire transfer of
                                  $53,705 was outstanding for over 6 months. According to the finance
                                  office, the purpose of recording a wire transfer transaction was to make
                                  the food service office aware that, at a later date, a $50,000 workers
                                  compensation expense would be incurred by the school lunch fund.
                                  However, the school finance office did not notify the food service office

13
  Accountability and Record-Keeping for the School Nutrition Programs Handbook – July 2002.
14
  By their very nature, wire transfers are normally immediate transfers of funds. The instruments for the transfers were
not actually delivered to the bank until months later.

USDA/OIG-A/27010-14-KC                                                                                         Page 9
                         when the wire transfer was completed and the workers compensation
                         invoice was paid.

                   •     In addition, the SFA employees accounted for the Summer Food Service
                         Program (SFSP) reimbursement under State sources instead of Federal
                         sources on the 2001/2002 Annual Financial Status Summary report to
                         the State agency. We obtained SFSP documentation for June and July
                         2000, 2001, and 2002. We determined the SFA overstated State and
                         understated Federal sources on the 2001/2002 Annual Financial Status
                         Summary report. The SFA incorrectly accounted for the SFSP
                         payments of $30,711 and $21,055 for June and July 2001,
                         respectively, as from State sources. However, the SFA received SFSP
                         payment reimbursements only from Federal sources, not State sources.
                         The SFA did not review the Annual Financial Status Summary report
                         for accuracy. As a result, the SFA overstated State sources and
                         understated Federal sources by $51,766 ($30,711 plus $21,055).

Recommendation No. 3

                   Require the State agency to instruct the SFA to develop procedures to
                   (1) promptly complete bank statement reconciliations and the monthly
                   financial status summary reports on a timely basis, (2) review financial
                   status summary reports for accuracy and analyze reports to identify errors,
                   (3) monitor cash flow without establishing outstanding wire transfers, and
                   (4) properly account for SFSP reimbursements. Require the State agency
                   to verify the SFA has implemented the procedures.

                   FNS Response.

                   FNS concurred with Recommendation No. 3.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA
                   will be completed.




USDA/OIG-A/27010-14-KC                                                               Page 10
Section 2. Collection and Accounting for Reimbursable Meals

Finding 4                      Meal Accountability Procedures Were Not Followed

                               Meal accountability procedures observed at two schools were not
                               consistent with the program agreement. The schools were not following
                               the State agency approved POS. The approved POS was identical for all
                               schools, but many schools had different POS procedures that they
                               followed. SFA officials said that they copied the Collection and
                               Accountability Procedures Form from one year to the next without any
                               adjustments or amendments specific to the manner individual schools
                               actually operated the POS. There was reduced assurance the SFA claimed
                               only the meals eligible for reimbursement because the SFA reported
                               incorrect POS procedures to the State agency.

                               Federal regulations15 require the SFA to enter into a written agreement
                               with the State agency. State agency guidelines16 state an authorized
                               representative of the SFA will be responsible for assuring the local
                               program is in compliance with the program agreement between the SFA
                               and State agency and for reviewing and analyzing meal counts to ensure
                               accuracy.

                               The program agreement for the Lawrence School District monitoring
                               procedures stated, “The cashier monitors each tray at the end of the
                               serving line.” The program agreement also states, “After students pass
                               through the serving line, a cashier or teacher uses a coded roster to
                               check-off or scan the name or number of each student served a
                               reimbursable meal. The cashier uses the roster or the computer to
                               determine the daily count by category.”

                               We found the actual procedures in practice differed from the approved
                               procedures. At East Heights Elementary School, we observed the kitchen
                               manager was responsible for tallying the number of students as they left
                               the entrée line. However, there was a vegetable serving bar after the
                               entrée line where students had an opportunity to serve themselves
                               reimbursable meal components. SFA employees were not monitoring to
                               verify that each meal claimed for reimbursement had all the required
                               components. At Kennedy Elementary School, we observed a school
                               employee sitting at the beginning of the breakfast line collecting scanable
                               cards for the students entering the cafeteria while a food service employee
                               stood at the end of the self-serving line to ensure each student had the
                               components for a reimbursable meal. However, these procedures did not
                               comply with the approved POS procedures.


15
     7 CFR 210.9(b).
16
     Kansas State Department of Education Food Service Facts Handbook – Fall 1999.

USDA/OIG-A/27010-14-KC                                                                           Page 11
                   During the review, the SFA correctly completed revised program renewal
                   agreements for each school and submitted the revisions to the State
                   agency.

Recommendation No. 4

                   Instruct the State agency to require the SFA to implement controls to
                   ensure that all schools follow the approved counting procedures, such as
                   through the correct implementation of the annual required onsite review
                   process. Require the State agency to verify the SFA has correctly
                   implemented the procedures.

                   FNS Response.

                   FNS concurred with Recommendation No. 4.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA
                   will be completed.




USDA/OIG-A/27010-14-KC                                                             Page 12
General Comments
                    No Procedures to Prorate All Interest Income to the Food
                    Service Fund

                    The SFA did not have policies or accounting procedures in effect to credit
                    the school food service account with its prorated share of interest earned
                    for the time its funds were deposited in the district’s general funds. The
                    SFA was not aware of the Federal definition of revenue17 that shows a
                    prorated share of earnings from investments should be credited to the
                    school food service account. (Once funds were moved from the district’s
                    general accounts to the school food service account, they earned about
                    $17,328 of interest income during the 2001/2002 school year.) Because
                    the SFA historically did not charge the school food service account for
                    indirect costs (i.e., electricity, gas, janitorial service), we are not
                    questioning any costs for interest income due to the school food service
                    account. We noted that if the SFA immediately credited the State agency
                    reimbursements to the school food service account, then interest income
                    earnings would be properly credited to the school food service account
                    (see Finding No. 2).




17
     7 CFR 210.2.

USDA/OIG-A/27010-14-KC                                                                Page 13
Scope and Methodology
                              Our review primarily covered NSLP/SBP operations July 1, 2001, to
                              December 31, 2002, concentrating on operations since July 1, 2002.
                              However, we reviewed records for other periods, as deemed necessary.
                              We performed audit work at the FNS Regional office in
                              Denver, Colorado, the Kansas State agency in Topeka, and the SFA in
                              Lawrence, Kansas. We selected the SFA in Lawrence, Kansas, because it
                              is one of only two Kansas SFA’s with Provision 2 schools.18 We
                              performed fieldwork during the period January through September 2003.

                              In school years 2001/2002 and 2002/2003, there were 19 elementary
                              schools, 4 middle schools, 2 high schools, and 1 alternative school. We
                              reviewed NSLP/SBP claims of all 26 schools and observed lunchroom
                              operations at 2 elementary schools, 1 middle school, and 1 high school.
                              We performed our audit in accordance with Government Auditing
                              Standards.

                              To accomplish our review objectives, we reviewed FNS, State agency, and
                              SFA regulations, policies, procedures, manuals, and instructions
                              governing NSLP/SBP operations. We also reviewed the State agency’s
                              most recent administrative review of the SFA’s NSLP/SBP operations and
                              the SFA’s corrective actions taken in response to the administrative review
                              findings and recommendations. The following audit procedures were also
                              performed:

                              •   Interviewed officials from the State agency and SFA, in order to obtain
                                  an overview of their method of operation for the NSLP/SBP;

                              •   Evaluated the SFA’s procedures used to gather and consolidate
                                  monthly meal claims and whether reports were verified for accuracy;

                              •   Evaluated edit check controls used to assure the reasonableness of
                                  claims for reimbursement when daily meal counts, by category,
                                  exceeded average daily attendance;

                              •   Reviewed the SFA’s accounting system, which included a review of
                                  program funds and interest on those funds;

                              •   Analyzed the monitoring efforts of the SFA through a review of the
                                  onsite accountability reviews conducted during school years
                                  2001/2002 and 2002/2003; and
18
  A Provision 2 school serves meals to participating children at no charge, which may be a good alternative for schools
with a very high percentage of children eligible for free and reduced-price meals. Provision 2 reduces application
burdens to once every 4 years and simplifies meal counting and claiming procedures by allowing a school to receive
meal reimbursement based on claiming percentages.

USDA/OIG-A/27010-14-KC                                                                                       Page 14
                   •     Reviewed the SFA’s procedures for issuing Requests for Proposal and
                         contracts.




USDA/OIG-A/27010-14-KC                                                              Page 15
Exhibit A – Summary of Monetary Results
                                                                                             Exhibit A – Page 1 of 1



     Finding No.                   Description                          Amount                 Category
                      SFA Did Not Timely Submit Claims
         1            for Reimbursement                                  $141,600            Underclaim19




19
   FNS personnel stated their opinion that the amount does not represent an underclaim because the amounts (two
claims) in question were not payable to the SFA under FNS policy and requested OIG to remove exhibit A from the
report. However, OIG noted that during our audit the State agency authorized payment of the October 2001 claim for
$141,600 after the SFA submitted a claim, but denied a second late-filed claim for $85,600. Therefore, OIG believes
that under its reporting policies, the $141,600 is most accurately shown as an underclaim.

USDA/OIG-A/27010-14-KC                                                                                    Page 16
Exhibit B – FNS Reply to Official Draft
                                          Exhibit B – Page 1 of 1




USDA/OIG-A/27010-14-KC                             Page 17
